Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE PART D PAYMENTS
 FOR BENEFICIARIES IN PART A
  SKILLED NURSING FACILITY
        STAYS IN 2006




                    Daniel R. Levinson
                     Inspector General
                         June 2009
                     OEI-02-07-00230
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
    E X E C U T I V E                   S U         M M A R Y
  Δ         E X E C U T I V E                           S U M M A R Y


                    OBJECTIVE
                    To determine the extent to which Medicare Part D paid for drugs for
                    beneficiaries in Part A skilled nursing facility (SNF) stays in 2006.


                    BACKGROUND
                    Medicare Part D provides outpatient prescription drug coverage for
                    Medicare beneficiaries who enroll. Part D covers most prescription
                    drugs; however, it excludes drugs that are covered under Medicare
                    Parts A or B. Specifically, Part D excludes drugs for beneficiaries in
                    Part A SNF stays if the drugs were for use in the facility or to facilitate
                    the beneficiaries’ discharge.

                    The Centers for Medicare & Medicaid Services (CMS) has identified
                    duplicate payments by Medicare Parts A and D as a potential
                    vulnerability. CMS further states that billing multiple payers (e.g.,
                    Parts A and D) for the same prescription is an example of pharmacy
                    fraud, waste, and abuse.

                    This review determines the extent to which Medicare Part D paid for
                    drugs for beneficiaries in Part A SNF stays in 2006.


                    FINDINGS
                    Medicare Part D paid for 1.2 million drugs, amounting to $75 million,
                    for beneficiaries in Part A SNF stays in 2006; the majority of these
                    payments were most likely inappropriate. Sixty percent of the drugs
                    Part D paid for while beneficiaries were in Part A SNF stays in 2006
                    were dispensed by long-term care pharmacies. Long-term care
                    pharmacies dispense drugs for use in long-term care settings, including
                    SNFs. These drugs were most likely dispensed for use in the facility
                    during a Part A SNF stay and covered under Medicare Part A, rather
                    than Part D. Therefore, Part D payments for these drugs, which
                    amounted to $41.3 million, were most likely inappropriate. Retail and
                    other types of pharmacies dispensed the remaining 40 percent of drugs
                    paid for by Part D for this population. If these drugs were for use in the
                    facility or were to facilitate the beneficiaries’ discharge, these Part D
                    payments were also inappropriate.
                    Part D payments were widespread among SNFs and pharmacies.
                    Nearly every SNF and half of all pharmacies had beneficiaries who had
                    a drug paid for by Part D during their Part A SNF stay. At the same


OEI-02-07-00230     M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   i
    E X E C U T I V E                 S U         M M A R Y


                  time, a small number of SNFs and pharmacies were responsible for a
                  large percentage of these Part D payments. Notably, 160 SNFs
                  accounted for 12 percent ($8.6 million) of the payments and
                  30 pharmacies accounted for 18 percent ($13 million) of all Part D
                  payments for beneficiaries in Part A SNF stays.


                  RECOMMENDATIONS
                  Based on these findings, we recommend that CMS:

                  Ensure that Part D payments for drugs for beneficiaries in Part A SNF
                  stays are appropriate. CMS should ensure that Part D does not pay for
                  drugs that are covered under Parts A or B for beneficiaries in Part A SNF
                  stays.
                  Specifically, we recommend that CMS take the following actions:

                  Provide additional guidance about when Parts A and D can pay for drugs
                  for beneficiaries preparing for discharge. CMS should provide additional
                  guidance to SNFs, pharmacies, and Part D sponsors that clarifies the
                  circumstances under which Part D can pay for drugs before
                  beneficiaries are discharged from Part A SNF stays. Specifically, CMS
                  should clarify when Part A covers drugs by defining what is considered
                  a “limited supply” and providing further guidance about when Part A
                  should cover these drugs to facilitate discharge. It should also clarify
                  when Part D may cover extended supplies of drugs for beneficiaries
                  before they are discharged from Part A SNF stays.

                  Educate SNFs, pharmacies, and Part D sponsors that drugs covered under
                  Parts A or B for beneficiaries in SNF stays are not eligible for payment
                  under Part D. CMS should educate SNFs, pharmacies, and Part D
                  sponsors that it is inappropriate for Part D to pay for drugs for
                  beneficiaries in Part A SNF stays. CMS should consider holding
                  open-door forums, developing factsheets, or using other methods to
                  inform these entities about this issue.

                  Implement retrospective reviews to prevent inappropriate Part D payments
                  for drugs for this population. CMS should implement routine reviews to
                  ensure that inappropriate Part D payments do not occur. Further, CMS
                  should conduct ongoing analysis and monitor trends in Part D payments
                  for beneficiaries in Part A SNF stays.

                  Follow up with the SNFs and pharmacies that were responsible for a large
                  percentage of Part D payments for beneficiaries in Part A SNF stays. CMS
                  should consider tracking these entities to ensure that payments have

OEI-02-07-00230   M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   ii
    E X E C U T I V E                 S U         M M A R Y


                  decreased. To help CMS address this issue, we will forward information
                  in a separate memorandum about the SNFs and pharmacies that were
                  responsible for a large percentage of the Part D payments.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with the three recommendations in our draft report.
                  However, it raised several concerns about the report and in response we
                  clarified the language in the report and added a recommendation.

                  In response to our recommendation to educate SNFs, pharmacies, and
                  Part D sponsors, CMS noted that it had recently issued a memorandum
                  to Part D sponsors reminding them of the exclusion of Part D payments
                  for drugs covered under Medicare Part A stays. The memorandum also
                  announced that effective 2009, Part D sponsors would receive lists twice
                  annually of their institutional beneficiaries.

                  In response to our recommendation to implement retrospective reviews,
                  CMS stated that it expects to better understand the most appropriate
                  controls for prevention and detection of inappropriate Part D payments
                  after it looks at the specific information the Office of Inspector General
                  (OIG) provides about the SNFs and pharmacies that were responsible
                  for the largest percentage of payments. CMS will also review feedback
                  from sponsors about the value of the list of institutional beneficiaries,
                  including those in SNFs.

                  In response to our recommendation to follow up with the SNFs and
                  pharmacies that were responsible for a large percentage of the
                  payments, CMS stated that it will investigate the allegations of
                  duplicate payments upon receipt of OIG’s data.

                  CMS also raised concerns about our methodology, stating that our draft
                  report failed to consider contemporary pharmacy practice and as a
                  result inflated the number of potential erroneous Part D payments.
                  Specifically, CMS noted that current pharmacy practice allows patients
                  to refill a prescription before their current supply is exhausted. CMS
                  further noted that although Part A provides reimbursement for “a
                  limited supply” to facilitate beneficiary discharge, beneficiaries must be
                  permitted to have a full outpatient supply available to continue therapy
                  once this limited supply is exhausted.

                  In response to CMS’s comments, we recognize that there are
                  circumstances in which drugs may be billed to Part D if they are not for

OEI-02-07-00230   M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   iii
    R   E C O     M M E N D A T                     I O N              S


                      use in the facility or to facilitate the beneficiaries’ discharge. Although
                      it is unlikely that drugs dispensed by long-term care pharmacies meet
                      these conditions, we modified the language in the report to address
                      CMS’s concerns. In addition, we note that it would be beneficial for
                      CMS to provide additional guidance to SNFs, pharmacies, and Part D
                      sponsors that clarifies the circumstances under which Parts A and D
                      can pay for drugs for beneficiaries preparing for discharge. As a result,
                      we added a recommendation to the report that CMS provide additional
                      guidance on these issues. We also note that we will provide the
                      information about the SNFs and pharmacies that were responsible for a
                      large percentage of Part D payments in a separate memorandum.




OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   iv
Δ   T A B L E           O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    Part D paid for 1.2 million drugs for beneficiaries in
                    Part A SNF stays; the majority of payments were most likely
                    inappropriate. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    Part D payments were widespread among SNFs and
                    pharmacies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
            Agency Comments and Office of Inspector General Response . . . . . . . 12


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    A: Most Frequently Dispensed Drugs Paid for by Part D. . . . . . . 15

                    B: Drugs with the Highest Part D Expenditures . . . . . . . . . . . . . 16

                    C: Centers for Medicare & Medicaid Services Comments . . . . . . 17



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  Δ         I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the extent to which Medicare Part D paid for drugs for
                    beneficiaries in Part A skilled nursing facility (SNF) stays in 2006.


                    BACKGROUND
                    Medicare Part D provides outpatient prescription drug coverage for
                    Medicare beneficiaries who enroll. Part D covers most prescription
                    drugs; however, it excludes drugs that are covered under Medicare
                    Parts A or B. Specifically, Part D excludes drugs for beneficiaries in
                    Part A SNF stays. These drugs are covered under Part A, except for a
                    few drugs that are covered under Part B.

                    The Centers for Medicare & Medicaid Services (CMS) has identified
                    duplicate payments by Medicare Parts A and D as a potential
                    vulnerability. According to CMS, “[w]ith the implementation of the
                    prescription drug benefit, there is potential for inappropriate duplicate
                    coverage between Parts A, B, and D drugs.” 1 CMS further states that
                    billing multiple payers (e.g., Parts A and D) for the same prescription is
                    an example of pharmacy fraud, waste, and abuse. 2
                    This review determines the extent to which Medicare Part D paid for
                    drugs for beneficiaries in Part A SNF stays in 2006 during the first year
                    of the Part D benefit.
                    Medicare Part D Prescription Drug Program
                    CMS contracts with private entities, known as sponsors, to provide the
                    Part D benefit. These sponsors may offer a stand-alone prescription
                    drug plan or they can offer prescription drug coverage as part of a
                    managed care plan, known as a Medicare Advantage Prescription Drug
                    Plan.
                    Each Part D plan develops its own list of covered drugs, known as a
                    formulary, which must meet certain standards. Each plan’s formulary
                    must contain at least two drugs within each therapeutic category and
                    pharmacologic class. 3 It also must cover “all or substantially all” of the


                    1 CMS, “Prescription Drug Benefit Manual,” ch. 9—Part D Program to Control Fraud,
                    Waste and Abuse, § 70.2.4 Rev. 2 (April 25, 2006). Available online at
                    http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_F
                    WA.pdf. Accessed on July 17, 2008.
                    2 Ibid., § 70.1.3.
                    3 42 CFR § 423.120(b)(2)(i).




OEI-02-07-00230     M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   1
    I N T R O D   U C T           I O N


                   drugs in six categories: immunosuppressant, antidepressant,
                   antipsychotic, anticonvulsant, antiretroviral, and antineoplastic
                   classes. 4 Certain classes of drugs are excluded from coverage by Part D.
                   These include benzodiazepines, barbiturates, weight management
                   drugs, and over-the-counter drugs. 5
                   In addition, Part D generally excludes from coverage drugs that are
                   covered under Parts A or B. Pursuant to the Medicare Prescription
                   Drug, Improvement, and Modernization Act of 2003 (MMA):
                          A drug prescribed for a Part D eligible individual that would
                          otherwise be a covered Part D drug under this part shall not
                          be so considered if payment for such drug as so prescribed
                          and dispensed or administered with respect to that
                          individual is available (or would be available but for the
                          application of a deductible) under Part A or B for the
                          individual. 6
                   CMS stated in the Part D final rule that this requirement means that
                   an otherwise covered Part D drug is excluded from coverage under
                   Part D if payment is available under Part A or Part B. 7 CMS further
                   clarified Part D coverage in a subsequent Part D rule issuance that
                   “. . . if payment could be available under Part A or Part B to that
                   individual for such drug, then it would not be covered under Part D.” 8
                   Further, CMS has explained that “. . . if Medicare Part A is paying for
                   the nursing home stay, an individual’s drug costs will in all likelihood
                   be covered through Medicare Part A payment, and so the issue of Part D
                   cost-sharing liability does not apply.” 9
                   Medicare Part A Skilled Nursing Facility Coverage
                   Medicare Part A covers posthospital skilled nursing care for
                   beneficiaries who meet certain conditions. To qualify for Part A SNF
                   coverage, the beneficiary must first have a medically necessary
                   inpatient hospital stay of at least 3 consecutive days. 10 The beneficiary


                   4 CMS, “Prescription Drug Benefit Manual.” Available online at

                   http://www.healthplus.org/uploadedFiles/PDFs/Medicare/PDBMChap6FormularyReqrmts_0
                   3.09.07.pdf. Accessed on December 3, 2008.
                   5 42 U.S.C. § 1395w-102(e)(2)(A) (citing to 42 U.S.C. § 1396r-8(d).
                   6 MMA, P.L. No. 108-173, Title I § 101(a)(e)(2)(B) (codified at 42 U.S.C. 1395w-102(e)(2)(B)).
                   7 70 Fed. Reg. 4194, 4230 (Jan. 28, 2005).
                   8 73 Fed. Reg. 20486, 20493 (Apr. 15, 2008).
                   9 70 Fed. Reg. 4341, 4372 (Jan. 28, 2005).
                   10 42 CFR § 409.30(a)(1).




OEI-02-07-00230    M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   2
    I N T R O D   U C T           I O N


                   must be admitted to a SNF within a specified time period (generally
                   30 days) of hospital discharge and must require skilled care for the
                   condition for which he or she received inpatient hospital services. 11
                   SNF care provided under Medicare Part A is limited to a benefit period
                   of 100 days and requires a copayment for days 21 through 100. 12
                   Medicare pays SNFs prospectively for beneficiaries in Part A stays.
                   These prospective payments cover most services supplied by the SNF,
                   including nursing care and physical, occupational, and speech
                   therapies. 13 The payments also cover drugs and biologicals furnished
                   by the facility for use in the facility for the care and treatment of
                   beneficiaries. 14 In addition, payments cover a limited supply of drugs
                   for use outside the SNF if it is medically necessary to facilitate the
                   beneficiary’s departure from the facility and is required until he or she
                   can obtain a continuing supply. 15 Further, payments for drugs “are not
                   limited to those routinely stocked by the facility but include those
                   obtained for the patient from an outside source, such as a pharmacy in
                   the community.” 16
                   Part A does not cover certain drugs that may be billed separately to
                   Medicare Part B. 17 For example, Part B covers various chemotherapy
                   drugs. 18
                   Provision of Prescription Drugs in SNFs
                   Nursing homes typically contract with long-term care pharmacies to
                   provide drugs to their residents. 19 These pharmacies provide
                   specialized services, such as a comprehensive inventory of drugs


                   11 42 CFR § 409.30(b)(1).
                   12 42 CFR § 409.61(b); see also CMS, “Medicare General Information, Eligibility, and
                   Entitlement,” ch. 3—Deductibles, Coinsurance Amounts, and Payment Limitations,
                   Rev. 41, Oct. 27, 2006, § 10.4.
                   13 42 CFR §§ 413.335 and 409.20. For critical-access hospitals, Part A pays on a reasonable
                   cost basis for SNF services furnished under a swing-bed agreement rather than through
                   prospective payments. See 42 CFR § 413.114(a)(2).
                   14 42 CFR § 409.25.
                   15 42 CFR § 409.25(a)(2).
                   16 CMS, “Skilled Nursing Facility Manual,” Pub-12, § 230.5, Drugs and Biologicals.
                   17 42 CFR § 411.15(p)(2).
                   18 68 Fed. Reg. 46060 (Aug. 4, 2003). Also see CMS, “Overview of SNF Consolidated
                   Billing (CB).” Available online at
                   http://www.cms.hhs.gov/SNFPPS/05_ConsolidatedBilling.asp#TopOfPage. Accessed on
                   November 25, 2008.
                   19 70 Fed. Reg. 4194, 4250 (Jan. 28, 2005).




OEI-02-07-00230    M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   3
    I N T R O D   U C T           I O N


                   commonly used in long-term care settings, specialized packaging,
                   intravenous therapy medications, 7-day-a-week delivery, pharmacy
                   on-call services, and emergency medications. 20
                   One long-term care pharmacy generally provides drugs to all
                   residents in a nursing facility. For beneficiaries in Part A SNF stays,
                   the SNF is responsible for reimbursing the pharmacy for the drugs
                   covered under Part A. For beneficiaries who are covered by Part D
                   and are not in Part A SNF stays, the beneficiary and/or the Part D
                   sponsor is responsible for reimbursing the pharmacy.
                   Potential Vulnerabilities
                   If Part D pays for a drug that is covered by Part A, Medicare, in effect,
                   pays twice for this drug and either the SNF or the pharmacy profits.
                   Under Part A, Medicare pays SNFs prospectively to cover the costs of
                   services and items, including drugs, provided to beneficiaries in Part A
                   SNF stays. If the SNF receives the prospective payments for the
                   beneficiary but does not reimburse the pharmacy for the drugs, the SNF
                   profits. If the SNF reimburses the pharmacy for the drug and the
                   pharmacy is also paid by Part D, the pharmacy profits.
                   Payment Controls
                   Part A data files are maintained separately from Part D data files.
                   Currently, there is no system in place that combines the data from both
                   programs to check for duplicate payments. Additionally, Part D
                   sponsors are responsible for developing a program to control fraud,
                   waste, and abuse but do not have access to Part A data. Further, the
                   Medicare Drug Integrity Contractors (MEDIC) are responsible for
                   conducting data analysis to identify fraud, waste, and abuse in the
                   Part D program; however, they also lack access to Part A data.


                   METHODOLOGY
                   Scope
                   This study determines the extent to which Medicare Part D paid for
                   drugs for beneficiaries in Part A SNF stays that began in 2006, the first
                   year of the Part D benefit. Our analysis includes all drugs paid for by
                   Medicare Part D for beneficiaries while they were in Part A SNF stays.


                   20 CMS, “Long-Term Care Guidance, March 16, 2005.” Available online at

                   http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/LTCGuidance.pdf. Accessed on
                   July 31, 2007.



OEI-02-07-00230    M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   4
    I N T R O D   U C T           I O N


                   Identifying Part A Skilled Nursing Facility Stays
                   We used CMS’s Medicare Provider Analysis and Review (MEDPAR) file
                   to identify beneficiaries who had SNF stays that began in 2006. Each
                   MEDPAR record represents a SNF stay from admission to discharge.
                   We included only the days of each beneficiary’s stay that were covered
                   by Medicare. For each stay, we excluded the beneficiary’s day of
                   discharge from our analysis because SNFs are not reimbursed for the
                   day that the beneficiary leaves the nursing home. The last day of the
                   stay that was covered by Medicare is referred to as the day before
                   discharge.
                   Identifying Drugs Paid for by Part D
                   We identified the drugs paid for by Part D for beneficiaries in Part A
                   SNF stays using CMS’s Prescription Drug Event (PDE) data. As a
                   condition of payment, sponsors must submit a PDE record to CMS for
                   each Part D covered drug dispensed. 21 We used all final PDE events
                   that were received by CMS as of August 1, 2007.

                   We identified the drugs paid for by Medicare Part D for beneficiaries in
                   Part A SNF stays by matching the MEDPAR data to the PDE data
                   using the beneficiaries’ Health Insurance Claim Number. If the date of
                   service on the drug event was the same as the start date or between the
                   start date and the discharge date, then we included the event in our
                   population.
                   We then merged the data with the National Council for Prescription
                   Drug Program’s database by pharmacy identification number. We used
                   information from this database to determine the total number of
                   pharmacies and to identify the types of pharmacies (e.g., long-term care,
                   retail) that dispensed the drugs. We also obtained information about
                   the types of drugs that were dispensed based on the National Drug
                   Codes from First DataBank’s National Drug Data File. 22




                   21 CMS, “Updated Instructions: Requirements for Submitting Prescription Drug Event
                   Data,” April 27, 2006. Available online at:
                   http://www.cms.hhs.gov/DrugCoverageClaimsData/Downloads/PDEGuidance.pdf.
                   Assessed on December 30, 2008.
                   22 This data file contains descriptive information about all medications approved by the
                   Food and Drug Administration, plus information on commonly used over-the-counter drugs
                   and alternative therapy agents.



OEI-02-07-00230    M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   5
    I N T R O D   U C T           I O N


                   Analysis of Drugs Paid for During Part A Skilled Nursing Facility Stays
                   We analyzed the merged file described above to determine the total
                   amount paid by Part D for drugs while beneficiaries were in Part A SNF
                   stays. This amount is based on the ingredient cost, the dispensing fee,
                   and the sales tax from the PDE data for the drugs dispensed to these
                   beneficiaries. It includes the amount paid by Part D sponsors, the
                   amount paid by the Government, and the amount paid by or on behalf of
                   beneficiaries. We also analyzed the file to determine the number of
                   drugs paid for by Medicare Part D for these beneficiaries, the types of
                   drugs that were most frequently dispensed, 23 and the drugs with the
                   highest Part D expenditures. We analyzed the average drug costs based
                   on the average cost per drug event in the PDE data. For the purposes of
                   this study, we use the term “drugs” to refer to paid Part D claims, which
                   are also known as Part D drug events.
                   Limitations
                   This study determines the extent to which Part D paid for drugs
                   dispensed during beneficiaries’ Part A SNF stays. These payments are
                   inappropriate if the drugs were dispensed for use in the facility or to
                   facilitate the beneficiaries’ discharge because Medicare covers these
                   drugs under Parts A or B. Based on the data, however, we could not
                   determine whether the drugs met these criteria in all situations. This
                   determination can only be made based on a review of the medical
                   record, which was beyond the scope of this study. In addition, we
                   cannot determine from the data whether the pharmacy or the SNF was
                   profiting from any inappropriate payments. Lastly, our analysis of drug
                   costs did not take into account the dosage of the drugs.
                   Standards
                   Our review was conducted in accordance with the “Quality Standards
                   for Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




                   23 For the purposes of this report, the date the drug was dispensed is based on the date of
                   service on the drug claim, which is the date that the pharmacy filled the prescription.



OEI-02-07-00230    M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   6
  Δ         F I N D I N G S

         Medicare Part D paid for 1.2 million drugs,        Medicare Part D paid for
     amounting to $75 million, for beneficiaries in         1.2 million drugs for beneficiaries
                                                            while they were in Part A SNF
    Part A SNF stays in 2006; the majority of these
                                                            stays in 2006. 24 This amounted to
          payments were most likely inappropriate
                                                            $75 million in Part D payments,
                                                            the majority of which were most
                      likely inappropriate. Medicare Part D excludes drugs that are covered
                                           25

                      under Parts A or B. Part A (and in some cases Part B) covers drugs for
                      beneficiaries in Part A SNF stays. 26
                      Sixty percent of the drugs for beneficiaries in Part A stays were dispensed
                      by long-term care pharmacies; these payments were most likely
                      inappropriate
                      As shown in Chart 1 on the next page, long-term care pharmacies
                      dispensed 60 percent of the drugs Part D paid for while beneficiaries
                      were in Part A SNF stays in 2006. Nearly one-third (31 percent) of
                      these drugs were dispensed on the day of admission to the SNF.

                      Long-term care pharmacies dispense drugs for use in long-term care
                      settings, including SNFs. These drugs generally have specialized
                      labeling that is used exclusively in an institutional setting. These drugs
                      were most likely dispensed for use in the facility during a Part A SNF
                      stay and covered under Medicare Part A, rather than Part D.
                      Therefore, Part D payments for these drugs, which amounted to
                      $41.3 million, were most likely inappropriate.
                      Retail and other types of pharmacies dispensed the remaining
                      40 percent of drugs paid for by Part D for beneficiaries in Part A SNF
                      stays
                      Retail pharmacies dispensed 35 percent of the drugs for these
                      beneficiaries for a total of $27.3 million in Part D payments. Other
                      pharmacies (including institutional, home infusion, and mail order)




                      24 For the purposes of this study, we use the term “drugs” to refer to paid Part D claims,
                      which are also known as Part D drug events.
                      25 Part D payments are made by Part D sponsors, Medicare, and beneficiaries or by a third
                      party on behalf of the beneficiary.
                      26 42 CFR § 409.25.




OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   7
    F   I N D I N G        S


                          dispensed the remaining 5 percent of the drugs, totaling $6 million. 27
                          About 26 percent of drugs dispensed by retail pharmacies and
                          10 percent of drugs dispensed by other types of pharmacies were
                          dispensed on the day before discharge.

                          As noted earlier, Part A not only covers drugs routinely stocked by the
                          facility but also those obtained for the patient from an outside source,
                          such as a pharmacy in the community. 28 If these drugs were obtained
                          for use in the SNF, the Part D payments were inappropriate. Also,
                          Part A covers a limited supply of drugs for use outside the SNF if it is
                          medically necessary to facilitate a beneficiary’s discharge. If these
                          drugs were for this purpose, these Part D payments were also
                          inappropriate. 29


   Chart 1: Source of
                                                                                                 Other
         Drugs Paid by
                                                                                               Pharmacies
             Part D for
                                                                                                 5.2%
         Beneficiary in
  Part A SNF Stays in
                  2006

                                                                                                                                Retail
                                                                                                                              Pharmacies
                                                                                                P
                                                                                                                                34.6%


                                          Long-Term
                                             Care
                                          Pharmacies
                                            60.2%



                          Source: OIG analysis of CMS data, 2008.




                          27 An institutional pharmacy is a pharmacy in a hospital (inpatient) used by the pharmacist
                          for the compounding and delivery of medicinal preparations to be administered to the
                          patient by nursing or other personnel. A home infusion pharmacy is a decentralized patient
                          care organization that provides care to patients with acute or chronic conditions generally
                          pertaining to drugs and biologics administered through catheters and/or needles in home
                          and alternative sites.
                          28 CMS, “Skilled Nursing Facility Manual,” Pub. 12, § 230.5, Drugs and Biologicals.
                          29 This determination can only be made based on a review of the medical record, which was
                          beyond the scope of this study.



OEI-02-07-00230           M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006           8
    F   I N D I N G    S


                      The drugs paid for by Part D varied; however, a relatively small number
                      of drugs accounted for a large percentage of the Part D payments
                      Overall, Part D paid for 2,396 different types of drugs for beneficiaries
                      in Part A SNF stays. On average, each type of drug was dispensed
                      513 times, ranging from 1 to 45,832 times. The average cost per drug
                      was $61 and costs ranged from $0.01 to $12,794. The median drug cost
                      was $24 and the most common cost per drug was about $8. Of the
                      25 most frequently dispensed drugs, 13 were generic and 12 were
                      brand-name drugs. Appendix A provides a list of the drugs most
                      commonly paid for by Part D for beneficiaries in Part A SNF stays.

                      A relatively small number of drugs accounted for a large percentage of
                      Part D payments for beneficiaries in Part A SNF stays. Specifically,
                      25 drugs accounted for 40 percent of the Part D payments for these
                      beneficiaries. Twenty-three of the drugs were brand-name drugs, and
                      two were generic. The average cost of these drugs was $124 and the
                      median cost was $118. See Appendix B for a list of the 25 drugs.



  Part D payments were widespread among SNFs                 Nearly every SNF and half of all
                                                             pharmacies had beneficiaries who
                               and pharmacies
                                                             had a drug paid for by Part D
                                                             during their Part A SNF stay.
                      At the same time, a small number of SNFs and pharmacies were
                      responsible for a large percentage of these Part D payments.
                      Nearly every SNF had beneficiaries in Part A SNF stays who received
                      drugs paid for by Part D
                      Ninety-seven percent (16,009 of 16,525) of all SNFs had at least one
                      beneficiary who had a drug paid for by Part D during a Part A SNF
                      stay. Part D paid for an average of 77 drugs per facility for these
                      beneficiaries. Part D payments for these drugs averaged $4,659 per
                      facility.

                      Although these payments were widespread, 160 SNFs accounted for
                      12 percent ($8.6 million) of the Part D payments for beneficiaries in
                      Part A SNF stays. Notably, one SNF had nearly $270,000 in Part D
                      payments for drugs for these beneficiaries.
                      About half of pharmacies received Part D payments for beneficiaries
                      in Part A SNF stays
                      Forty-nine percent (36,171 of 73,398) of all pharmacies received Part D
                      payments for beneficiaries in Part A SNF stays. These pharmacies


OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   9
    F   I N D I N G    S


                      dispensed an average of 34 drugs for these beneficiaries. On average,
                      Medicare Part D payments totaled $2,062 per pharmacy.

                      Compared to other types of pharmacies, long-term care pharmacies
                      dispensed more drugs paid for by Part D per pharmacy for beneficiaries
                      in Part A SNF stays. Long-term care pharmacies dispensed an average
                      of 586 drugs paid for by Part D while beneficiaries were in Part A SNF
                      stays. Part D payments for these drugs were, on average, $32,711 per
                      pharmacy and ranged from $5 to over $1 million. In contrast, retail
                      pharmacies dispensed an average of 13 drugs, or $830 per pharmacy.
                      Other pharmacies dispensed an average of 31 drugs, or $2,883 per
                      pharmacy.
                      Although these payments were widespread among pharmacies,
                      30 pharmacies accounted for 18 percent ($13 million) of all Part D
                      payments for beneficiaries in Part A stays. Notably, 26 of these
                      30 pharmacies were long-term care pharmacies.




OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   10
  Δ         R E C O M M E N D A T I O N S




                    Based on our review, we found that Medicare Part D paid for 1.2 million
                    drugs, amounting to $75 million, for beneficiaries in Part A SNF stays
                    in 2006. The majority of these payments were most likely
                    inappropriate. Medicare Part D excludes drugs that are covered by
                    Parts A or B. Part A (and in some cases Part B) covers drugs for
                    beneficiaries in Part A SNF stays if the drugs were dispensed for use in
                    the facility or to facilitate the beneficiaries’ discharge.

                    Specifically, we found that 60 percent of the drugs for these
                    beneficiaries were dispensed by long-term care pharmacies. Long-term
                    care pharmacies dispense drugs for use in long-term care settings,
                    including SNFs. These drugs were most likely dispensed for use in the
                    facility during a Part A SNF stay. Therefore, Part D payments for these
                    drugs, which amounted to $41.3 million, were most likely inappropriate.
                    The remaining drugs were dispensed by retail or other types of
                    pharmacies. If these drugs were for use in the facility or were to
                    facilitate the beneficiaries’ discharge, these Part D payments were also
                    inappropriate.

                    Lastly, we found that Part D payments for drugs for beneficiaries in
                    Part A SNF stays were widespread among SNFs and pharmacies.
                    Nearly every SNF and half of all pharmacies had beneficiaries who had
                    a drug paid for by Part D during a Part A SNF stay. At the same time,
                    a small number of SNFs and pharmacies were responsible for a large
                    percentage of these Part D payments.

                    Based on these findings, we recommend that CMS:
                    Ensure That Part D Payments for Drugs for Beneficiaries in Part A SNF
                    Stays Are Appropriate
                    CMS should ensure that Part D does not pay for drugs that are covered
                    under Parts A or B for beneficiaries in Part A SNF stays.

                    Specifically, we recommend that CMS take the following actions:

                    Provide additional guidance about when Parts A and D can pay for drugs
                    for beneficiaries preparing for discharge. CMS should provide additional
                    guidance to SNFs, pharmacies, and Part D sponsors that clarifies the
                    circumstances under which Part D can pay for drugs before
                    beneficiaries are discharged from Part A SNF stays. Specifically, CMS
                    should clarify when Part A covers drugs by defining what is considered


OEI-02-07-00230     M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   11
    R   E C O     M M E N D A T                     I O N              S


                      a “limited supply” and providing further guidance about when Part A
                      should cover these drugs to facilitate discharge. It should also clarify
                      when Part D may cover extended supplies of drugs for beneficiaries
                      before they are discharged from Part A SNF stays.

                      Educate SNFs, pharmacies, and Part D sponsors that drugs covered under
                      Parts A or B for beneficiaries in SNF stays are not eligible for payment
                      under Part D. CMS should educate SNFs, pharmacies, and Part D
                      sponsors that it is inappropriate for Part D to pay for drugs for
                      beneficiaries in Part A SNF stays. CMS should consider holding
                      open-door forums, developing factsheets, or using other methods to
                      inform these entities about this issue.
                      Implement retrospective reviews to prevent inappropriate Part D payments
                      for drugs for this population. CMS should implement routine reviews to
                      ensure that inappropriate Part D payments do not occur. Further, CMS
                      should conduct ongoing analysis and monitor trends in Part D payments
                      for beneficiaries in Part A SNF stays. As noted earlier, Part D sponsors
                      and the MEDICs do not currently have access to Part A data. CMS
                      should consider providing the MEDICs and the sponsors access to
                      Part A data to conduct ongoing analysis and to identify inappropriate
                      Part D payments for this population.

                      Follow up with the SNFs and pharmacies that were responsible for a large
                      percentage of Part D payments for beneficiaries in Part A SNF stays.
                      CMS should consider tracking these entities to ensure that payments
                      have decreased. To help CMS address this issue, we will forward in a
                      separate memorandum information about the SNFs and pharmacies
                      that were responsible for a large percentage of the Part D payments.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with the three recommendations in our draft report.
                      However, it raised several concerns about the report and in response we
                      clarified the language in the report and added a recommendation.

                      In response to our recommendation to educate SNFs, pharmacies, and
                      Part D sponsors, CMS stated that it is committed to providing
                      additional information about its programs. Among other things, CMS
                      noted that it had recently issued a memorandum to Part D sponsors
                      reminding them of the exclusion of Part D payments for drugs covered
                      under Medicare Part A stays. The memorandum also announced that


OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   12
    R   E C O     M M E N D A T                     I O N              S


                      effective 2009, Part D sponsors would receive lists twice annually of
                      their institutionalized beneficiaries, including those in SNFs. CMS
                      advised Part D sponsors that this information will provide them with a
                      mechanism to identify beneficiaries for whom the sponsor may be most
                      at risk for being billed inappropriately for Part D payment.

                      In response to our recommendation to implement retrospective reviews,
                      CMS stated that although it concurs in general, it is currently unsure of
                      the most appropriate strategy for implementing these reviews. CMS
                      stated that it expects to better understand the most appropriate
                      controls for prevention and detection of inappropriate Part D payments
                      after it looks at the specific information OIG will provide about the
                      SNFs and pharmacies that were responsible for the largest percentage
                      of payments. CMS will also review feedback from sponsors about the
                      value of the list of institutional beneficiaries, including those in SNFs.
                      CMS stated that it will explore whether the most timely and effective
                      strategy for review for potential duplicate Part D payments is at the
                      Part D plan level, and if that is the case, it will provide additional
                      guidance to sponsors.

                      In response to our recommendation to follow up with the SNFs and
                      pharmacies that were responsible for a large percentage of the
                      payments, CMS stated that it will investigate the allegations of
                      duplicate payments upon receipt of OIG’s data.
                      CMS also raised concerns about our methodology, stating that our draft
                      report failed to consider contemporary pharmacy practice and as a
                      result inflated the number of potential erroneous Part D payments.
                      Specifically, CMS noted that current pharmacy practice allows patients
                      to refill a prescription before their current supply is exhausted. CMS
                      further noted that although Part A provides reimbursement for “a
                      limited supply” to facilitate beneficiary discharge, beneficiaries must be
                      permitted to have a full outpatient supply available to continue therapy
                      once this limited supply is exhausted.

                      In response to CMS’s comments, we recognize that there are
                      circumstances in which drugs may be billed to Part D if they are not for
                      use in the facility or to facilitate the beneficiaries’ discharge. Although
                      it is unlikely that drugs dispensed by long-term care pharmacies meet
                      these conditions, we modified the language in the report to address
                      CMS’s concerns. In addition, we note that it would be beneficial for
                      CMS to provide additional guidance to SNFs, pharmacies, and Part D
                      sponsors that clarifies the circumstances under which Parts A and D

OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   13
    R   E C O     M M E N D A T                     I O N              S


                      can pay for drugs for beneficiaries preparing for discharge. Currently,
                      CMS guidance does not explicitly state what is considered a limited
                      supply of drugs covered by Part A, nor does it state under which
                      circumstances Part D can pay for drugs. As a result, we added a
                      recommendation to the report that CMS provide additional guidance on
                      these issues. We also note that we will provide the information about
                      the SNFs and pharmacies that were responsible for a large percentage
                      of Part D payments in a separate memorandum.

                      The full text of CMS’s comments is provided in Appendix C.




OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   14
  Δ         A P P E N D I X ~ A




       Most Frequently Dispensed Drugs Paid for by Part D for Beneficiaries in
       Medicare Part A Skilled Nursing Facility Stays

                                                                                                               Number of Drugs
       Rank                    Drug Name                      Generic or Brand Name
                                                                                                                   Dispensed*
       1                       Furosemide                                                 Generic                                    45,832
       2                  Warfarin sodium                                                 Generic                                    27,890
       3                          Lisinopril                                              Generic                                    23,534
       4                Metoprolol tartrate                                               Generic                                    23,116
       5                Potassium chloride                                                Generic                                    21,215
       6             Lovothyroxine sodium                                                 Generic                                    20,872
                         Hydrocondone w/
       7                    acetaminophen                                                 Generic                                    20,503
       8                           Norvasc                                            Brand name                                     18,087
       9                            Aricept                                           Brand name                                     16,434
       10                          Protonix                                           Brand name                                     15,840
       11                      Omeprazole                                                 Generic                                    15,324
       12                         Levaquin                                            Brand name                                     15,181
       13                          Lexapro                                            Brand name                                     14,322
       14                            Lipitor                                          Brand name                                     13,759
       15                         Seroquel                                            Brand name                                     13,419
       16                       Prednisone                                                Generic                                    13,120
       17                         Prevacid                                            Brand name                                     12,755
       18                      Mirtazapine                                                Generic                                    11,970
       19                      Gabapentin                                                 Generic                                    11,566
       20                             Plavix                                          Brand name                                     11,548
       21                         Risperdal                                           Brand name                                     11,453
       22                        Toprol XL                                            Brand name                                     11,100
       23                  Albuterol sulfate                                              Generic                                    10,602
       24                        Novolin R                                            Brand name                                     10,385
       25           Isosorbide mononitrate                                                Generic                                     9,814
                                            Total                                                                                   419,641

      Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services data, 2006.

      * Note: For the purposes of this study, we use the term “drugs” to refer to paid Part D claims.




OEI-02-07-00230                 M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006        15
  Δ         A P P E N D I X ~ B




     Drugs With the Highest Medicare Part D Expenditures for Beneficiaries in
     Medicare Part A Skilled Nursing Facility Stays

                                                                                                                             Percentage
                                                                                                   Total Part D
     Rank            Drug Name                   Generic or Brand Name                                                         of Part D
                                                                                                    Payments
                                                                                                                              Payments
     1                   Lovenox                                              Brand name              $2,282,281                        3.1%
     2                     Aricept                                            Brand name              $2,137,327                        2.9%
     3                  Seroquel                                              Brand name              $1,783,011                        2.4%
     4                 Risperdal                                              Brand name              $1,749,444                        2.3%
     5                   Zyprexa                                              Brand name              $1,727,855                        2.3%
     6                     Procrit                                            Brand name              $1,607,826                        2.2%
     7                   Protonix                                             Brand name              $1,571,417                        2.1%
     8                  Prevacid                                              Brand name              $1,503,141                        2.0%
     9                      Plavix                                            Brand name              $1,314,817                        1.8%
     10                     Lipitor                                           Brand name              $1,170,750                        1.6%
     11                 Levaquin                                              Brand name              $1,133,232                        1.5%
     12             Advair Diskus                                             Brand name                $982,316                        1.3%
     13                Namenda                                                Brand name                $977,457                        1.3%
     14                  Lexapro                                              Brand name                $963,398                        1.3%
     15                  Norvasc                                              Brand name                $951,693                        1.3%
     16                     Zyvox                                             Brand name                $912,025                        1.2%
     17                   Nexium                                              Brand name                $892,506                        1.2%
     18                 Fentanyl                                                  Generic               $845,852                        1.1%
     19                 Thalomid                                              Brand name                $825,989                        1.1%
     20                     Coreg                                             Brand name                $824,200                        1.1%
     21                    Lantus                                             Brand name                $709,699                        1.0%
     22                   Ambien                                              Brand name                $709,441                        1.0%
     23                  Aranesp                                              Brand name                $700,093                        0.9%
     24                     Zocor                                             Brand name                $683,840                        0.9%
     25              Omeprazole                                                  Generic                $625,870                        0.8%
                             Total                                                                  $29,585,480                         39.7%

    Source: Office of Inspector General analysis of Centers for Medicare & Medicaid Services data, 2006.




OEI-02-07-00230                M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006           16
 ..         A P PEN D                                       x        c

            Centers for Medicare & Medicaid Services Comments



                  if/
                  ...
                  i
                  'I . ~,
                                             DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Cenle'" for Medl.are & Medicaid Services

                  ,_f- ,. .
                   ~""4'''''C''''' .                                                                                    200 Independenoa Avenus SW
                                                                                                                        Wa.hington, DC 20201




                                                           MA 0,'. .2ÐD9
                                       DATE:

                                       TO:             Daniel R: Levinson
                                                       Inspector General .
                                                   (li;..:,,4:".L~'l'~ ,.
                                       FROM:       ~ñ;-Frz~ra
                                                       Aotig Administrator


                                       SUBJECT:        Offce of'nspector General' (OIG) Draft Report: "Medicare Part 0 Payments. for
                                                       Beneficiaries in Pro'! A Skiled Nursing Facility Stays in 2006," (OEI-02-07-
                                                       00230)


                                       Thank you for the opportunity to. review and comment on the OIG's draft report that examines
                                       the appropriateness of Part D plan payments for beneficiaries who resided in a Part A skiled .
                                       nursing facility   (SNF) stay during 2006, The Centers for Medicare & Medicaid Servces (CMS)
                                                                                the Medicare Prescription Drug, Improvement, and
                                       is committed to upholding the provision of
                                       Modernization Act of 2QM (MMA) that requires Part 0 sponsors to exclude from payment an
                                       otherwise covered Par 0 drug if payment is available urder Part A or Par 13, CMS tak.eg .
                                       seriously all€ga.trons offraud, waste and abuse and wiH foIlQW up, as appropriate; on any
                                       confirmed cases involving a Part 0 sponsor inappropriately paid under a Part A stay.

                                       We acknowledge the real possibilty of inappropriate Part 0 duplicate payments for beneficiaries
                                       under Part A stays, and as described below in detail, we.have taken numerous steps to help plans
                                       identify inappropriate payments. However, we continue to believe that the underlying
                                       methodtilogyutiIlzed by the 010 seti6usiyiiiflatedtlie number of   potential erroneous Part D
                                       payments. '$JièCltically, the study methodology failed to censider contemporary pharmacy
                                       practice and the standard øfc'Care prøvided in sktUed nUi'Sing facilithiS by usI'ig.the prescription
                                       drug event date (POE) dispensing date as equivalent to the patient administration date, As a
                                       result, any POE dispensing date occurring within the period of a Par A stay is identified as an
                                       errone9us PaitD duplicate payment. eMS believes that this coiiclusi.on is not appropriate in all
                                       cases,

                                       Current pharmacy practice allows  a patient to refill a preseriptionbefore their current siipply is
                                       exhausted. For example, ii patient receiving a 30 day supply of medieation typically Is permitted
                                       to obtain a refill on day 26 so that the individual wil have a fresh supply on hand prior to
                                       exhausting the initial 30 days of medication. Similarly, for patients in a long-term care facility,
                                       medications are generally dispensed and delivered before the existing supply is exhausted (in
                                       some cases a number of days i¡i advance) to ensure that there wil be no gaps in therapy. '
                                       Consequently, \Joth long term care and retail pharmacies may appropriatelybi1 Par 0 for




OEI.02.07-00230                              MEDICARE PART D PAYMENTS FOR BENEFICIARIES IN PART A SNF STAYS IN 2006                                                17
    A P PEN D                  x          c




                    Page 2 - Daniel R. Levinson

                    medications dispensed and delivered near the end of a benefieiary's Part A stay beeause .these
                    medications are being dispensed for consumption after the Par A stay is exhausted,
                    Nevertheless, in this report, drugs with a PDE dispensing date near the. end of a beneficiary's
                    par A stay wil appear as inappropriate, duplicate Par D payments. We recommend the OIG
                    correct its methodology and re-report its findings considering ths is common pharmacy practiee
                    for all patients, not just for people with Medicare.

                    . It is important to emphasize that there are legitimate level of care transitions that necessitate the
                     dispensing ofPart'D drugs before a patient is discharged from a ~art A facility, While Par A
                     does provide reimburement for "a limited supply" to .faciltate benefieiary discharge,
                     beneficiaries'must be permitted  to have a full outpatient supply available to continue therapy
                                                             I This is particularly tre for beneficiaries using mail-order
                    once this liinited supply is exhausted.
                     pharmacy, home infsion therapy, or residing in rural areas where obtaining a continuing supply
                     of drg may involve certin'delays, Thus, the current standard of care promotes caregivers
                     receiving outpatient Par D prescriptions in advance of discharge from a Par A stay.

                     In addition, CMS is very concemed that the current draf report,
                                                                                               may undercut the beneficiary
                     protections of CMS' existing.transition policy, Access to Par D drgs during level of care
                     chages is absolutely ne~ssary to maintaining high quality prescription drug coverage and in
                     preventing any interruptions in drug therapy. Delays in accessing Part D drugs may hinder
                     diseharge from a long-term care facilty, Therefore, the OIG should artculate caution in its,final .
                     report about the conclusions so as to not impede access to transition supplies for some of
                     Medieare's most vulnerable beneficiaries. Moreover, given that. the report relies on.2006 dEita
                     that may reflect initial siar up issues, the OIG should frame the final report in such a way as to
                     ensure that Par D sponsors do not become overly eautious in providing Par D drugs related to
                     discharge from a Par A stay.

                     The 010 reeommend eMS ensur¡, that Part D payments for drugs for beneficiaries in Par A
                     SNF stays are appropriate. Specifically, the OIG recommend CMS take the following actions:

                     OIG Recommendation,

                     Educate SNFs, pharmacies, and Par D sponsors that drugs covered under Par A or 13 for
                     beneficiaries in SNF stays are not eligible for payment under Par D.

                     CMS Response

                     The CMS concurs with this reCommendation and is firmly committed to providing additional'
                     information about our programs. Since the inception of the Part D program, CMS has worked
                     tirelessly to provide education to all of our parers regarding the interface of drg coverage
                     under Medicare Parts A, B, and D. In the 2005 PLu D final rule, CMS provided an extensive
                     discussion on the relationship' of drug reimbursement of Medicar ,par A, B, and D. This
                     message was reinforced in hundreds of outreach events specifically targeted at LTC facilties,
                     pharacies, and phannacists. Furtermore, eMS eonducted numerous pharmacy open door
                     forus between 200S and 2008 that incJùded information regarding payment for drugs under
                     i Medicare Benefit Policy Manual, Chapter I, Seciion 30.2, Drugs for Use Outside the 'Hospital.




OE I. 02.07.00230            MEDICARE PART D PAYMENTS FOR BENEFICIARIES IN PART A SNF STAYS IN 2006                           18
     A P PEN 0                         x         c




                         Page 3' - Daniel R. Levinson


                         various Medicare programs and addressed the exclusion of Par D drug reimbursement when
                         payment was available under Medicare Parts A and B. .

                        , Our educational, effort continues today. Recently, the CMS Offce of External Affairs revised an
                          educational tool entitled, "Medicare Drug Coverage under Part A, Par B, and Par D." This tool.
                          provides' extensive 'infoqnation on the relationship of drug reimbursement under various



                                                                                                    , .'
                          Medicare Programs and is available for use by the pharmacy and long term care community. We
                          have iilso posted in-depth information about Medicare payment on our Long Term Care
                         Pharmacy website? . ,,'
                         In addition, following the OIG's exit conference, in a November 2008 memorandum, we
                         reminded Pl!t D sponsors of the exclusion of Par D payment for drugs covered under Medicare
                         Par A stays.3 This memorandum also anlloUlced that effective 2009, Par D sponsors would
                         receive lists twice anually of their institutional enrol1ees, including the names aÙd addresses of
                         the paricular LTC facilties and any    applicable indieatois of Part A stays fróm most recent
                         available MDS data. We advised Par D sponsors that this information would assist them in
                         preventig Part D payment for drgs covered under Medicare Part A stays, The Part A indicator
                         will provide Par D sponsors with a meehanism to identify beneficiaries for which the sponsor
                         may be most at risk for being biled inappropriately for Part D pay'ment. .
                                                                                           continue to provide information orì
                         As educational oPPOl'lnities present themselves, CMS wil
                         the relationship and reimburement for drugs under Medicare Pars A, B and D. Moreover, we
                         contiue to enhance our relationships wi.th the various pharmacy and long ter care associations
                         and plan to reinforce the message regarding the exelusion of payment for par D drugs for
                         beneficiaries under 'a par A stay.

                         OIG Recommendation

                         lmplement retrospective reviews to prevent inappropriate Par D payments for drLlgs for this
                         population.

                         CMS Response

                         The eMS eoncurs with tis recommendation in general; however, we arecuITently unsure of
                                                                                                                         the
                         most appropriate strategy for implementing a      retrospective review process. We look forward to
                         receiving the OIG specific information about the SNFs and phariiacies that were responsible for
                         a large pereentage ofthe Par D payments under review. After we have looked into this . .
                         information and receive feedbaek from sponsors on the value of sending out the bianual
                                                                                                                             list of
                         institutiona enrollees, we expeet to better understand the factors underlying this type of error, as '
                         well as the most appropriate eontrols for prevention and detection. We wil explore
                                                                                                                whether the
                         most timely and effective strategy for review for potential duplicate Part D payments is at the
                                                                                                     the Par D sponsor's
                         'Par D plan leveL. For example, this review could be a.component of
                        . retrospective diug utilzation revi'eW system required under 42 CFR 423.1 53(c)(3), Should.our
                          analysis determine that this is the most.appropriate place for this review, we wil
                                                                                                             provide

                         i http://www.cms.hhs.gov/Pha,macy/04-itc.asp#TopOfPage "
                         , http://www .cms.hhs,gov/PrescriplionDrugCovContra/Down loads/MemoL TeContracting_l! ,25.08,pdf.




o E 1.02. 07 .002 3 0                MEDICARE PART D PAYMENTS FOR BENEFICIARIES IN PART A SNF STAYS IN 2006                            19
 A P PEN D                         x        c




                      'Page 4 - Daniel R, Levinson
                                                       . '
                      additional guidance to Part D sponsors in the annual. Cali Letter and ultimately in Chapter 7 of
                      the Medicare Prescription Drug BenefitManual, section 20.3, Retrospective Drug Utilzation
                      Review.

                      DIG Recommendation

                      Follow up with the SNFs and pharmacies that wete responsible for a large percentage of Part D
                      payments for beneficiaries in Part A SNF stays.

                      'CMS ReSDODse

                  . The CMS .concurs with.ths recommendation and wil investigate the allegations of duplieate
                  .
                   payments upon receipt of the OIG's supplemental data. We take very seriously the allegations
                      about Par D sponsors and wil implement con-ective action upon confirmation of inappropriate
                      payments.

                      Thank you for your efforts to study this matter. CMS is serious about enforcing Part D
                      SpoIIors' adherence to eMS requirements.. To the extent that sponsors are not in complianee
                      with Part D program requirements, CMS wil investigate and take action,where necessary.




OEI.02.07-00230                     MEDICARE PART D PAYMENTS FOR BENEFICIARIES IN PART A SNF STAYS IN 2006               20
    A   P   P E N D   I X           C
  Δ         A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Jodi Nudelman,
                      Regional Inspector General for Evaluation and Inspections in the New
                      York regional office, and Meridith Seife, Deputy Regional Inspector
                      General.

                      Miriam Anderson served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the New York
                      regional office who contributed to this report include Taryn Eckstein,
                      Michelle McInnis, and David Rudich. Other regional and central office
                      staff who contributed include Eddie Baker and Sandy Khoury.




OEI-02-07-00230       M E D I C A R E PA R T D PAY M E N T S   FOR   BENEFICIARIES   IN   PA R T A S N F S TAY S   IN   2006   21
